Supreme Court, U.S.
FILED

FEB 0 4 2021
Docket No.: 20-6395

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

Howard Griffith,
Pro Se,
Defendant-Petitioner,

VS

People of the State of New York,
County of Onondaga,
William J. Fitzpatrick, Esq.
Plaintiff-Respondent

Petition for Rehearing for Petition for Writ of Certiorari

Howard Griffith, Pro Se
2903 James Street, Apt. 1R
Syracuse, NY 13206
(315) 741-7420
REC QED
FER -9 2021
trairci7Jetaicr,57

Affidavit of Service

STATE OF NEW YORK)
COUNTY OF ONONDAGA)ss.:
I, Rebecca Sklaney, duly depose and say, I served the original Petition for Rehearing for Petition
of Writ of Certiorari for the Defendant/Petitioner, Howard Griffith, for proceeding titled Howard

M a rck

Griffith v New York, 2020-6395, dated:

, 2021, and ten copies of the

same to the Clerk of the Supreme Court of the United States, with an exact copy of the same to:
William J. Fitzpatrick, Esq., District Attorney of the State of New York/County of Onondaga,
and a copy of the same to the Attorney General of the State of New York of the Syracuse
Regional Offices, being the only known parties of the said proceeding, via certified mail, by
depositing on the ()I

day of

M a rck

, 2021, the original petition and exact copies

of the same in a post office box of the City of Syracuse, NY, to be handled with care in Post
Offices in the cities of Washington, DC, and Syracuse, NY, to be received at the following
known addresses:
Clerk of the United States Supreme Court
1 First Street, N. E., Washington, DC 20543
William J. Fitzpatrick, Esq., NYS District Attorney/County of Onondaga
505 South State Street, 4th Floor, Syracuse, NY 13202
Attorney General of New York State of the Syracuse Regional Offices
300 South State Street, Suite 300, Syracuse, NY 13202
Being the last known addresses for these parties, being the only known parties in these
proceedings, that deponent is over 18 years of age, is not a veteran, is not a party in this
proceeding, and resides in Syracuse, NY.

_),Mtaix4

Rebecca S aney

Sworn to before me this 61'4' day of

044

EDEN CARR
Notary Public-State of New York
No. 04CA6393815
Qualified in Onondaga County
Commission Expires 06/24(2023

, 2021

Affidavit of Service
STATE OF NEW YORK)
COUNTY OF ONONDAGA)ss.:
I, Rebecca Sklaney, duly depose and say, I served the original Petition for Rehearing for Petition
of Writ of Certiorari for the Defendant/Petitioner,, Howard Griffith, for proceeding titled Howard
Griffith v New York, 2020-6395, dated:

Mckr C

1

, 2021, and ten copies of the

same to the Clerk of the Supreme Court of the United States, with an exact copy of the same to:
William J. Fitzpatrick, Esq., District Attorney of the State of New York/County of Onondaga,
and a copy of the same to the Attorney General of the State of New York of the Syracuse
Regional Offices, being the only known parties of the said proceeding, via certified mail, by
depositing on the

q

day of N\

r-C i\

, 2021, the original petition and exact copies

of the same in a post office box of the City of Syracuse, NY, to be handled with care in Post
Offices in the cities of Washington, DC, and Syracuse, NY, to be received at the following
known addresses:
Clerk of the United States Supreme Court
1 First Street, N. E., Washington, DC 20543
William J. Fitzpatrick, Esq., NYS District Attorney/County of Onondaga
505 South State Street, 4th Floor, Syracuse, NY 13202
Attorney General of New York State of the Syracuse Regional Offices
300 South State Street, Suite 300, Syracuse, NY 13202
Being the last known addresses for these parties, being the only known parties in these
proceedings, that deponent is over 18 years of age, is not a veteran, is not a party in this
proceeding, and resides in Syracuse, NY.

Sworn to before me this

nfrit, day of AA a1c.11

EDEN CARR
Notary Public-State of New York
No. 04CA6393815
Qualified in Onondaga County
Commission Expires 06/24/2023

Rebecca Skla

, 2021

Affidavit of Service

STATE OF NEW YORK)
COUNTY OF ONONDAGA)ss.:
I, Rebecca Sklaney, duly depose and say, I served the original Petition for Rehearing for Petition
of Writ of Certiorari for the Defendant/Petitioner, Howard Griffith, for proceeding titled Howard
Griffith v New York, 2020-6395, dated:

, 2021, and ten copies of the

-"; I51'

same to the Clerk of the Supreme Court of the United States, with an exact copy of the same to:
William J. Fitzpatrick, Esq., District Attorney of the State of New York/County of Onondaga,
and a copy of the same to the Attorney General of the State of New York of the Syracuse
Regional Offices, being the only known parties of the said proceeding, via certified mail, by
depositing on the

(-11 S

day of it

, 2021, the original petition and exact copies

of the same in a post office box of the City of Syracuse, NY, to be handled with care in Post
Offices in the cities of Washington, DC, and Syracuse, NY, to be received at the following
known addresses:
Clerk of the United States Supreme Court
1 First Street, N. E., Washington, DC 20543
William J. Fitzpatrick, Esq., NYS District Attorney/County of Onondaga
505 South State Street, 4th Floor, Syracuse, NY 13202
Attorney General of New York State of the Syracuse Regional Offices
300 South State Street, Suite 300, Syracuse, NY 13202
Being the last known addresses for these parties, being the only known parties in these
proceedings, that deponent is over 18 years of age, is not a veteran, is not a party in this
proceeding, and resides in Syracuse, NY.

Sworn to before me this Li

t,

Rebecca Sklaney
day of c1
.4 f r7 , 2021

DOMINICK J. DeREGIS
Notary Public, State of New York
Qualified in Onondaga County
Reg. No. 01DE6410931
My Commission Expires 11/9/2024

Question Presented
Why does this Court need to Reconsider the Denial of Defendant's Petition for
Writ of Certiorari?

With this Court reconsidering Defendant's Petition for Writ of Certiorari to be
considered as "Dismissed Without Prejudice", remedies will be preserved to make
some important corrections.

List of Parties
Howard Griffith, Defendant/Petitioner
People of the State of New York/County of Onondaga, Plaintiff/Respondent
Assistant Attorney General of New York State
Syracuse Regional Office

ii

QUESTION PRESENTED
Why does this Court need to reconsider Defendant's Petition for Writ of Certiorari denied on
January 19, 2021, to be considered to be without prejudice?

With this Court's decision to deny Defendant's Petition for Writ of Certiorari on January 19,
2021, to later be considered to be without prejudice, this process will satisfy the remedy for the
appropriate "Court Reporters" to be provided which Defendant previously requested from this
Court to have provided with his Supplemental Brief dated January 9, 2021, as this would apply
to Howard Griffith, et al. v New York, 5:20-cv-1312 (GLS/ML)

LIST OF PARTIES
Howard Griffith, Defendant/Petitioner
People of the State of New York/County of Onondaga, Plaintiff/Respondent
Assistant Attorney General of New York State
Syracuse Regional Office

ii

TABLE OF CONTENTS
Question Presented ... i
List of Parties ... ii
Jurisdiction ... 1
Concise Statement ... 1-3
"Statement of Claim" for "Howard Griffith, et al. v New York [ ]" ... 3-5
Habeas Corpus Dismissed Without Prejudice? ... 6-9
Memorandum for "People v Griffith, 166 AD3d 1518 (4th Dept 2018)" ... 7-8
Motion for Reconsideration to the New York State Court of Appeals ... 10-11
Conclusion ... 11-12
Certificate of Good Faith
TABLE OF AUTHORITIES
"People v Griffith, 2001-0883-1"
People v Griffith, 166 AD3d 1518 (4th Dept 2018) November 9, 2018 ... 1, 6, 7, 8, 9, 10, 11, 12
People v Griffith, 32 NY3d 1196 [2019], lv denied February 21, 2019 ... 10
People v Griffith, 33 NY3d 1047 [2019] reconsideration denied. June 11, 2019 ... 10
Howard Griffith v New York, 140 S Ct 407 [2019] cent denied : October 15, 2019 ... 10
Letter/Decision/Order of Onondaga County Court: October 25, 2019 ... 10-11
People v Griffith, 2020-552 lv denied October 22, 2020 ... 10, 11

United States Codes
13 U.S.C. Section 141, Population and other census information ... 1
13 U.S.C. Section 223, Refusal, by owners, proprietors, etc., to assist census employees ... 5

iii

18 U.S.C. Section 231(a)(3) obstruction, impediment, or interference with the distribution of the
census ... 4
28 U.S.C. Section 1915(e)(2)(B), Judiciary and Judicial Procedure, In Forma Pauperis ... 3
28 U.S.C. Section 1915(h) "Prisoner" defined ... 2, 6
28 U.S.C. Section 1915A Screening ... 2
42 U.S.C. Section 1983, Civil Action for Deprivation of Rights ... 2, 3

Criminal Statutes
NY Penal Law Section 130.35(1), Rape 1st ... 1,12
NY Criminal Procedure Law Section 450.10(1), direct appeal ... 7, 8

New York Correction Law Article 168, Sex Offender Registration Act (SORA)
Correction Law Section 168-n, Judicial Determination ... 7
Correction Law Section 168-0(2), Sex Offender Modification ... 8, 11
Correction Law Section 168-r, Immunity from Liabilities ... 2

New York Civil Practice Law and Rules (CPLR)
Civil Practice Law and Rules Article 78, Proceeding Against Body or Officer ... 1-2, 3, 4

New York Real Property Law
Real Property Law Section 235-b, Warranty for Habitability ... 4-5

New York County Law
County Law Section 700(5), District Attorney, Powers and Duties "Confidential Secretary" ... 2
iv

CPLR Article 78
Howard Griffith v Onondaga County, SU-2020-005851 ... 1-2, 3, 4

42 U.S.C. Section 1983
Howard Griffith et al v New York, 5:20-cv-1312 (GLS/ML)

1, 2, 3, 6, 7, 9, 11, 12

Court Reporters
Bounds v Smith, 430 U.S. 817 (1977) ... 7
Lewis v Casey, 518 U.S. 343 (1996) ... 7
People v Caccavale, 305 A.D.2d 695, (2d Dept 2003) ... 7-8
People v Charles, 162 A.D.3d 125 (2d Dept 2018), lv denied 32 N.Y.3d 904 (2018) ... 8

Executive Law
Orders pursuant to Section 29-a of article 2-b of the New York Executive Law: Orders 202.67
and 202.8, with regard to COVID-19, substantively affected court procedure, closing
courthouses and law libraries ... 7

Constitutional Provisions Involved
4th Amendment of the United States Constitution
5th Amendment of the United States Constitution
6th Amendment of the United States Constitution
9th Amendment of the United States Constitution
10th Amendment of the United States Constitution
14th Amendment of the United States Constitution

INDEX TO THE APPENDIX
Howard Griffith v New York, 20-6395: "Petition for Writ of Certiorari denied": January 19,
2021

Notice from the United States Supreme Court, received on March 4, 2021

Complaint, Order to Show Cause, and Motion to Obtain Temporary Restraining Order (with
attachments) to have been provided for the United States District Court of the Northern District
of New York for "Howard Griffith, et al. v New York, 5:20-cv-1312 (GLS/ML)" (These
documents have not yet been filed in any court proceedings.)

vi

JURISDICTION
Defendant demonstrated that his sex offender registry is invalid in two ccompletely different
manners in two completely different matters: "People v Griffith, 166 AD3d 1518 (4th Dept
2018)" and "Howard Griffith et al v New York, 5:20-cv-1312 (GLS/ML)" Defendant
demonstrated how the Onondaga County District Attorney is liable for both errors. Defendant
also demonstrates how errors of law in accordance with 13 U.S.C. 141 (Population and other
census information) provided for the address for his sex offender registry was the most
fundamental remedy for him to have taken his actions in accordance with "Howard Griffith, et al.
v New York [ ]" It is important for this Court to review this because considerations will need to
be considered with regard[s] to [p]ossibilities for declaratory judgment being made in essence of
"Howard Griffith, et al. v New York [ ]" and [p]ossibilities of Defendant's conviction for Rape
1st, NY Penal Law Section 130.35(1) being dismissed in essence of "People v Griffith [ ]". It
would need to be considered how possibilities for these remedies being successful would still be
able to maintain the substance of the declaratory judgment if Defendant's conviction were to be
dismissed. Vice versa, it would also need to be considered how the declaratory judgment could
not live in essence of a conviction for Rape 1st [ ] as "Howard Griffith, et al. v New York [ ]"
also involves his roommate, Rebecca Sklaney, joining him as a Plaintiff. Rebecca Sklaney can be
deemed as a substantive character for this cause because she resides with Defendant in
compliance with his sex offender registry. Nevertheless, she is not a sex offender.

CONCISE STATEMENT
"The People of the State of New York, County of Onondaga, Should not be Immune from
Liabilities Defendant served a copy of his Civil Practice Law and Rules Article 78 Petition,

1

Howard Griffith v Onondaga County, SU-2020-005851, on the District Attorney of Onondaga
County in New York State on September 17, 2020, at 11:07 am. This may provide that the
Onondaga County District Attorney can now be deemed subject to being a party to both actions
as a fundamental procedure has been satisfied to join these actions on account that the United
States District Court of the Northern District of New York has confirmed Defendant is a
'Prisoner' as defined in 28 USC Section 1915(h), substantive to prosecution by the district
attorney of Onondaga County in New York State, with regard to penalties pursuant to NY
Correction Law Section 168-t, precedented on the most fundamental remedy with regard to
People v Griffith, 2001-0883-1. It can be determined Defendant was defined as a prisoner via
Howard Griffith, et al. v New York, No. 5:20-cv-1312 (GLS/ML) because his motion was placed
on the docket with regard to being screened pursuant to 28 U.S. Code ยง 1915A, to provide it can
be deemed the United States District Court of the Northern District of New York has reviewed
Defendant's 42 US Code Section 1983 motion to determine it was feasible. This was provided to
the Onondaga County District Attorney in the case that it may have been necessary for the
District Attorney to have served as a 'Confidential Secretary' pursuant to NY County Law
Section 700(5), for Onondaga County, with regard to the action taken with Order to Show Cause
for 'Howard Griffith v Onondaga County'. This could have established precedent that Onondaga
County and New York State would have been afforded Immunity from Liabilities pursuant to NY
Correction Law Section 168-r, with regard to the remedies in each of these two cases as the
Onondaga County District Attorney should have been well aware that it was necessary for
himself to have addressed this. Nevertheless, failure to address this would have most likely
resulted in Defendant being prosecuted for penalties pursuant to NY Correction Law Section
168-t, after 'Howard Griffith v Onondaga County, SU-2020-005851' was denied Order to Show

2

Cause on October 30, 2020, if Defendant had not preserved the cause via 42 U.S. Code Section
1983. The United States District Court of the Northern District of New York should be well
aware that Defendant had served a copy of this because Defendant had provided a stamped copy
of 'Howard Griffith v Onondaga County, SU-2020-005851' to be filed with 'Howard Griffith, et
al. v New York, 5:20-cv-1312 (GLS/ML)' confirming that it was received by the District
Attorney of New York State, County of Onondaga, at that setting." (Supplemental Brief:
November 30, 2020)

Judge Miroslav Lovric provided in his Order and Report Recommendation dated December 28,
2020:
ACCORDINGLY, it is
RECOMMENDED that the Court DISMISS WITH LEAVE TO REPLEAD Plaintiffs'
complaint (...) for frivolousness pursuant to 28 U.S.C. Section 1915(e)(2)(B) (Supplemental
Brief: January 9, 2021)
Defendant, Howard Griffith, is demonstrating how he will be proceeding as a Plaintiff with
Plaintiff Rebecca Sklaney to REPLEAD the "Statement of Claim" for the complaint:

"New York State should have been liable for protecting Plaintiff Griffith from Penalties pursuant
to NY Correction Law Section 168-t with regard to errors involving the census and invalid
identities of people identified as residing in his household. (NY Correction Law Section 168-t,
'Penalty': Any sex offender required to register or to verify pursuant to the provisions of
this article who fails to register or verify in the manner and within the time periods
provided for in this article shall be guilty of a class E felony upon conviction for the first

3

offense, and upon conviction for a second or subsequent offense shall be guilty of a class D
felony... ) Plaintiff Griffith provided it needed to have been considered for it to have been
necessarily appropriate to take actions which may be considered to have obstructed, impeded, or
interfered with the distribution of the census, pursuant to 18 USC Section 231(a)(3), as was
provided for his sex offender registry, as this was to maintain his safety. The primary cause for
this action taken to the state court: 'Howard Griffith v Onondaga County, NY Civil Practice Law
and Rules Article 78, SU-2020-005851', was to obtain law [e]nforcement, with regard to the
perpetration provided by his landlord and perpetrators on the property of his [shared] policy.
Also, with regard to the requirement for "[e]nforcement", [c]ode [e]nforcement was necessary.
This included [e]nforcement to obtain corrections for Plaintiff Griffith's address. The primary
cause for the action taken to the state court, pursuant to NY Civil Practice Law and Rules Article
78, was not satisfied. Without New York satisfying this remedy, Plaintiff Griffith provided cause
for action taken to obtain [e]nforcement, which would include correction of his address, to be
obtained to have been provided as a secondary cause, via injunction, after obtaining a declaration
from the United States District Court of the Northern District of New York to determine his
voting rights were being violated with regard to errors involving the census. Plaintiffs took this
action while providing a motion to obtain a temporary restraining order, as this would have been
necessary to protect their voting rights and personal safety. The Civil Practice Law and Rules
Article 78 petition was initially drafted and provided for Plaintiffs' landlord, Jan Nastri, as an
Arbitration Plaintiff Griffith had prepared as an Arbiter providing he could take the action to the
court if there were any errors with regard to the policy for his home address, substantive to NY
Real Property Law Section 235-b, to provide substance that he would not be subject to any
conditions which would be dangerous, hazardous, or detrimental to his life, health or safety upon

4

the liabilities of his landlord. (NY Real Property Law Section 235-b[1], 'Warranty for
Habitability': In every written or oral lease or rental agreement for residential premises the
landlord or lessor shall be deemed to covenant and warrant that the premises so leased or
rented and all areas used in connection therewith in common with other tenants or
residents are fit for human habitation and for the uses reasonably intended by the parties
and that the occupants of such premises shall not be subjected to any conditions which
would be dangerous, hazardous or detrimental to their life, health or safety...) (This was
substantive to a fundamental remedy provided with regard to a conviction prosecuted by the
Onondaga County District Attorney, preserving Plaintiff Griffith could contact the police instead
of defending himself.) Errors with regard to the census (13 USC Section 223: 'Refusal, by
owners, proprietors, etc., to assist census employees') developed the full cause precedent was
established that he could amend the draft to take the action to court, as he presented it with the
action, with the omission provided for his sex offender registry; the nature of the proceeding
fundamental to the 'information [ ]' with regard to the Arbitration. With the State's error with
regard to the failure to correct this, it was character that had been preserved in the nature of the
cause which had enabled Plaintiffs to develop a strategy to have it provided for a procedure in
the federal court as Plaintiffs were going to have to address it with regard to a federal issue
involving violation of voter rights. Plaintiffs were able to demonstrate this with mail-in ballots
being provided for the erroneous address. It was necessary to take action to the United States
District Court of the Northern District of New York to maintain the remedy regarding Plaintiff
Griffith's requirements to have properly handled the Arbitration as an Arbiter for his own
personal safety along with the safety of his roommate, Plaintiff Rebecca Sklaney."

5

With Defendant's Supplemental Brief dated November 30, 2020, Defendant presented how
"Howard Griffith, et al. v New York, 5:20-cv-1312 (GLS/ML)" brought forward the question:
Coram Nobis or Habeas Corpus?
Judge Miroslav Lovric provided in his Order and Report Recommendation dated December 28,
2020:
ACCORDINGLY, it is
RECOMMENDED that the Court DISMISS WITHOUT PREJUDICE Plaintiffs' petition for
habeas corpus (...) for failure to exhaust available state court remedies (Supplemental Brief:
January 9, 2021)

Defendant is demonstrating how he will be proceeding as a Plaintiff with Plaintiff Rebecca
Sklaney, with a new motion in correspondence with the more comprehensible pleading and
substantive changes in law, referring to how Coram Nobis or Habeas Corpus may be substantive
to "Howard Griffith, et al. v New York, 5:20-cv-1312 (GLS/ML)"

"With Regard to Habeas Corpus, Plaintiff Griffith demonstrates that his sex offender registry
is invalid in two ccompletely different manners in two completely different matters: 'Howard
Griffith et al v New York, 5:20-cv-1312 (GLS/ML)' and 'People v Griffith, 166 AD3d 1518 (4th
Dept 2018)' Plaintiff Griffith demonstrates how the Onondaga County District Attorney is liable
for both errors. Plaintiff Griffith also demonstrates how final orders with regard to either matter
may provide remedies substantive to the other.
"Plaintiff Griffith attempted to take action for habeas corpus with this action because it has been
interpreted he was a prisoner. Also, pursuant to 28 U.S.C. Section 1915(h), because Plaintiff

6

Griffith's right to the law library was violated,' (see Bounds v Smith, 430 U.S. 817 [1977] and
Lewis v Casey, 518 U.S. 343 [1996]) he believed good cause may have been provided to have
taken the habeas corpus via an erroneous process. Plaintiff Griffith objects the interpretation this
Court provides for the Memorandum and Order provided with 'People of the State of New York
v Howard Griffith, 166 AD3d 1518 (4th Dept 2018)' (Appendix for Petition for Writ of
Certiorari: 2[a]) because it is clear that this Court took no time to review the 'court reporters'
posted in the memorandum (emphasis added):

People v Griffith, 166 AD3d 1518 (4th Dept 2018)
"People v Griffith, 166 AD3d at 1519 provides that the Supreme Court of the State of New York,
Appellate Division/Fourth Department held that Defendant (Plaintiff Griffith) had properly taken
his appeal pursuant to CPL 450.10(1) 'as it applies' to Correction Law Section 168-n, agreeing
with Defendant that 'he was denied effective assistance of counsel,' providing the cause to
'reverse the order, reinstate the petition, and remit the matter to County Court for a new hearing
on the petition.' It was concluded 'that defense counsel "essentially [ ] became a witness against
[defendant] and took a position adverse to him," which denied defendant effective assistance of
counsel (People v Caccavale, 305 A.D.2d 695, 695 [2d Dept 2003]: "Prior to sentencing, the
defendant moved, pro se, to withdraw his plea of guilty on the ground, inter alia, that his defense
counsel told him that he was going 'to blow trial' ... In response to the defendant's application
for permission to withdraw his plea of guilty, the defense counsel specifically denied this
allegation and stressed what he had done on the defendant's behalf. Under these circumstances,
the defendant's right to counsel was adversely affected when his attorney, essentially, became a
'New York Executive Orders pursuant to Section 29-a of article 2-b of the Executive Law: Orders 202.67
and 202.8, with regard to COVID-19, affected court proceedings, closing courthouses and law libraries
7

witness against him and took a position adverse to him. [The Supreme Court should have first
assigned new counsel to the defendant before deciding the defendant's motion] ... [the matter is
remitted to the Supreme Court, Westchester County, to hear and report on the defendant's motion
to withdraw his plea of guilty]... and the appeal is held in abeyance in the interim." [emphasis
added])' 2 'fit is well settled that a SORA proceeding may not be used to challenge the underlying
conviction]' satisfied the cause that the Onondaga County Court did not [i]nitially 'err in
refusing to allow him to challenge his plea or other aspects of his underlying conviction.' (id. at
1520 [emphasis added]) 'among other things,' (id. at 1519 [emphasis added]) a direct appeal
(CPL 450.10[1]) may be used to challenge the plea or other aspects of the underlying conviction.
People v Griffith, id. at 1519: (see generally People v Charles, 162 A.D.3d 125, 126, 137-140
[2d Dept 2018], id. at 138: 'Appellate Division Departments have all decided on the merits,' id.
at 125: 'It was of concern that defendant had never completed a sex offender treatment program
and had refused to accept responsibility for the offense.' [emphasis added]) 3
'People v Griffith, id. at 1519 (WESTLAW)
HEADNOTES
Crimes
Right to Counsel
Effective Representation
People v Caccavale, id. at 695 (WESTLAW)
HEADNOTES
CRIMES
RIGHT TO COUNSEL
3

People v Griffith, id. at 1519 (WESTLAW)
HEADNOTES
Crimes
Sex Offenders
Sex Offender Registration Act--Downward Modification
People v Charles, id. at 125 (WESTLAW)
HEADNOTES
Crimes
Sex Offenders
Sex Offender Registration Act--Downward Modification Not Warranted
8

"The procedure with regard to the order for 'People v Griffith [ ]' is not final. Plaintiff Griffith
demonstrates how his sex offender registry is the most fundamental remedy for any court actions
to have been taken, substantive to the arbitration developed with his landlord. The most
fundamental remedy of Plaintiff Griffith's sex offender registry is his conviction. With Plaintiff
Griffith's sex offender registry becoming moot with regard to a dismissal of his conviction, any
declaration for this action would not be able to live in essence for himself. Nevertheless,
remedies would still be able to be maintained to most fundamentally provide essence for Plaintiff
Rebecca Sklaney's declaration. However, in order to obtain that remedy, Plaintiff Griffith's
conviction would not be able to be overturned before declaration and injunction were to be
provided for the cause of action in this matter. With Habeas Corpus being dismissed without
prejudice, this satisfies the merits for Plaintiffs' temporary restraining order to maintain errors
with regard to Plaintiff Griffith's sex offender registry, most fundamentally for safety purposes
and most substantively to obtain declaration and injunction."

So far, Defendant has demonstrated some of the most substantive remedies with regard to how
he will be taking "Howard Griffith, et al. v New York, 5:20-cv-1312 (GLS/ML)" back to the
United States District Court of the Northern District of New York which develop remedies which
may affect a Petition for Writ of Certiorari to overturn his underlying conviction as Defendant is
attaching the Memorandum he will be providing as a Plaintiff, to the United States District Court
of the Northern District of New York, (that is the memorandum he will be providing to the
United States District Court of the Northern District of New York with Rebecca Sklaney) for
"Howard Griffith, et al. v New York, 5:20-cv-1312 (GLS/ML)" with the APPENDIX.

9

MORESO, Defendant is demonstrating how he intends to proceed back to the New York State
Court of Appeals with his Motion for Reconsideration for the decision provided by the New
York State Court of Appeals, 2020-552, dated October 22, 2020. (Appendix for Petition for Writ
of Certiorari: 13[a])
The People objected in response to Defendant's previous motion in Affirmation in Opposition to
Motion for Leave to Appeal, objecting there to be no livelihood of essence to have taken his
action to the New York State Court of Appeals with, provided for "People v Griffith, 166 AD3d
1518 (4th Dept 2018)" [ ] August 12, 2020: "the order was not final because it contemplated a
new hearing upon his application for a modification of his SORA risk level," demonstrating a
timeline, while explaining "This Court has already dismissed a purported appeal by defendant
from the same order... (People v Griffith, 32 NY3d 1196 [2019], reconsideration denied 33
NY3d 1047 [2019], cert denied 140 S Ct 140 [2019] [emphasis added] 4 ) This response by the
People demonstrates the cause to support why the New York State Court of Appeals dismissed
Defendant's Motion on October 22, 2020, on the grounds that the procedure was not finally
determined within the meaning of the constitution. Nevertheless, the timeline demonstrated by
the People with the Affirmation [ ] supporting the cause for the New York State Court of
Appeals to dismiss his "Motion for Leave to Appeal" characterizes that a substantive element
existed with regard to the letter/decision/order that Defendant had taken his appeal from, taken
"from each and every part thereof," which is important for this Court to notice. Judge Thomas J.
Miller of the Onondaga County Court demonstrated on October 25, 2019:

"The Fourth Department held that you had been deprived of the effective assistance of counsel
with regard to your prior application for a downward modification of your classification as a
4

Howard Griffith v New York, 140 S Ct 407 (2019), Certiorari denied: October 15, 2019
10

level three risk under the Sex Offender Registration Act (SORA) Accordingly, the Fourth
Department reinstated your petition and remitted the matter back to me to conduct a new hearing
(see People v Griffith, 166 AD3d 1518). Although I adjourned your hearing date on several
occasions to permit you to seek further appellate review on this determination, the Court of
Appeals declined to grant you further relief. Ultimately, you failed to appear in court for the
scheduled hearing on September 13, 2019 and, given the nature of the correspondence that you
have repeatedly sent to me regarding this matter, it was apparent to me that your failure to appear
was willful. Accordingly, I determined you had abandoned your petition." (Appendix for Petition
for Writ of Certiorari: 8[a])

Notice how proceedings in essence of "People v Griffith [ ]" were under the jurisdiction of this
Court on September 13, 2019. 5 That is the most fundamental remedy Defendant intends to refer
to with his intentions to support his cause for his Motion for Reconsideration to the New York
State Court of Appeals for the decision dated October 22, 2020. His intentions will be for the
[c]ourt to provide an order which may satisfy the remedy for the matter demonstrated with the
memorandum provided for "People v Griffith [ ]" to be reinstated to the Onondaga County Court
for further proceedings in its essence.

CONCLUSION
Defendant claims a declaration provided for Howard Griffith, et al. v New York, 5:20-cv-1312
(GLS/ML) may be very substantive and necessary with regard to current procedures and changes
of law being established in different jurisdictions around this country. Most importantly a
declaration [ ] may be very substantive and necessary for Defendant's and his roommate's,
5

Howard Griffith v New York, 140 S Ct 407 (2019), Certiorari denied: October 15, 2019
11

Rebecca Sklaney's, personal safety. However, it would be absolutely disgusting to provide that
such a substantive declaration was to be deemed to have been declared in essence of a conviction
for Rape 1st, NY Penal Law Section 130.35(1). Nevertheless, a final order to dismiss
Defendant's underlying conviction, after any declaration and injunction possibly being made for
Howard Griffith, et al. v New York, 5:20-cv-1312 (GLS/ML), would provide that any
declarations provided for "Howard Griffith" will be moot and any declarations provided for
"Rebecca Sklaney" will be maintained. Remedies have been preserved with People v Griffith,
166 AD3d 1518 (4th Dept 2018) (KA 17-01664) in the Supreme Court of the State of New York,
Appellate Division/Fourth Department, in Defendant's "Pro Se Supplemental Brief' dated June
28, 2018, to demonstrate how it can be determined that Defendant is "actually innocent".

WHEREFORE Defendant claims that exhaustion of remedies with regard to both of these [ ]
proceedings may develop a substantive cause for a Petition for Extraordinary Writ as Defendant
requests that his Petition for Writ of Certiorari be reconsidered to be without prejudice, because
with Petition for Writ of Certiorari being denied on January 19, 2021, and later to be considered
to be without prejudice, remedies will be satisfied for the appropriate "Court Reporters" 6 to have
been provided.

Respectfully Submitted
Dated:
Howard Griffith, pro se
2903 James Street, # 1R
Syracuse, NY 13206
315-741-7420

6

Supplemental Brief: January 9, 2021, pages 3-4
12

Docket No.: 20-6395

SUPREME COURT OF THE UNITED STATES
Howard Griffith,
Pro Se,
Defendant-Appellant
VS

People of the State of New York,
County of Onondaga,
Plaintiff:Respondent

Petition for Rehearing for Petition for Writ of Certiorari
I, Howard Griffith, received notice from the United States. Supreme Court on March 4, 2021, that
in Order for my Petition for Rehearing for Petition for Writ of Certiorari dated January 31, 2021,
to be considered to be filed, I would need to provide this material in support for my Petition, and
pursuant to Rule 44.2 of the Rules of the Supreme Court of the United States, I certify that this
Petition is provided with additional substantive grounds not previously considered which provide
the remedies to correct the intervening circumstances which were presented to have the
substantive controlling effect, as were provided with my Supplemental Briefs [ ], and I certify
that this Petition is made in good faith and not for delay.
Respectfully Submitted,
Dated:

Mo,rck

Gi l

iloa\
Howard Griffith, pro se
2903 James Street, # 1R
Syracuse, NY 13206
315-741-7420

REHEARING
Howard Griffith v New York, 20-6395 :
The actions Defendant had taken with his Petition for Writ of Certiorari, included
to have been taken with his Supplemental Briefs (November 30, 2020 and January
9, 2021), were outrageous. Defendant requests this Court to reconsider the
Decision made to "Deny" his Petition for Writ of Certiorari [dated: January 19,
2021,] to be considered as "Dismissed Without Prejudice" [ ]. With this [ ] being
granted, this would provide remedies to take actions in the lower courts to correct
the outrageously numerous amount of irregularities affecting the causes developed
with these two actions.

WHEREFORE, Defendant requests this Court's decision dated January 19, 2021
to "Deny" his Petition for Writ of Certiorari to be reconsidered as "Dismissed
Without Prejudice".

Respectfully Submitted,
Dated:

To, uary 3

ZAA,

)-1

Howard Griffith, pro se
2903 James Street, # 1R
Syracuse, NY 13206
315-741-7420

CERTIFICATE OF GOOD FAITH
In application of good faith, after having reviewed the filing of the record for
"Howard Griffith v New York, 20-6395" and to my best knowledge, upon
information and belief, developed after reasonable inquiry and being with regard to
several existing laws, my request to have this Court reconsider the Petition for Writ
of Certiorari to be considered as "Dismissed Without Prejudice", from the date
upon which the petition was denied, provides conditions I believe will be best if
granted. My intentions to have this action filed is not intended to demonstrate
improper procedure or needlessly increase the cost of litigation.

Dated:
avwL ckr1

311 .00,1

Respectfully Submitted,
e
isL.
N-01-0-0,4
Howard Griffith, pro se
2903 James Street, # 1R
Syracuse, NY 13206
315-741-7420

